              -
                                       CLOSEOUT FOR M97120047


             This case came to OIG on December 2, 1997, when Dr.
    officer in NSFYs                              Program in the Division
    informed us oflaut-na                             theft. The program officer had received a letter
    from Dr.                        (the complainant) of the Department of B               at 0
    University. The complainant requested that his proposals not be sent for review to Dr.
-                         (the first subject) and several of his collaborators, including 1            (the
    second subject). , The complainant alleged that the subjects had "blatantly plagiarized" work
    that he had done in collaboration with Dr.    m.                    In a statement accompanying his

    plagiarized work appeared 'in a journal article co-authored with
    subject).
                                                                               '
    letter to the program officer, the complainant elaborated on this allegation, claiming that the
                                                                                              (the third


            OIG has jurisdiction only over misconduct that occurs "in proposing, carrying out or
    reporting results from activities funded by NSF" (45 C.F.R. §689.1(a)(l)). OIG examined the
    complainant's letter and statement. They contain no evidence or allegation that the alleged
    intellectual theft occurred in the course of proposing, carrying out, or reporting on activities
    funded by NSF. According to NSF records, none of the subjects has ever been a principal
    investigator on an NSF award. We concluded that we lacked jurisdiction over the allegations in
    this case.

            The complainant also alleged that the frrst subject or one of his collaborators had
    reviewed a proposal that the complainant had previously submitted.' Consistent with NSF
    policy to keep the identity of reviewers confidential, OIG neither affirms nor denies that the
    first subject or any of his collaborators reviewed the proposal. The complainant alleged that
    the reviewer in question made incorrect remarks about the proposal and speculated that the
    reviewer may have done so intentionally. The complainant supplied no evidence to support
    this speculation and presented his inference about the reviewer's intent as merely probabilistic.
    OIG concluded that this allegation lacked substance.

           This inquiry is closed and no further action will be taken on this case.




                                             page 1 of 1               .   *   '
                                                                                        M97-47
